App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-51034
-----------------------------------------------------------------------

UNITED STATES of America,
Plaintiff-Appellee
v.
Michael BAKER,
Defendant-Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
-----------------------------------------------------------------------

(Filed Apr. 26, 2019)
Before WIENER, SOUTHWICK, and COSTA, Circuit
Judges.
WIENER, Circuit Judge:
Treating the petition for rehearing en banc as a
petition for panel rehearing, the petition for rehearing
en banc is DENIED. The following is substituted in
place of our opinion.
Defendant-Appellant Michael Baker was the
Chief Executive Officer of ArthroCare, a publicly
traded medical-device company. Baker, along with
the company’s other senior executives, engaged in a

App. 2
“channel-stuffing” scheme that involved sending excess products to a distributor that did not need those
products. ArthroCare reported those shipments as legitimate sales, which inflated the company’s revenue
numbers in its financial reports. Baker hid this scheme
from ArthroCare’s board and auditors, and he made
false statements to the SEC and to investors about the
company’s business model and relationships with its
distributors. When it was uncovered that the statements were false and that some of these sales were not
legitimate, ArthroCare restated its earnings and revenues, causing its stock price to drop.
This is the second time Baker has been convicted.
He was first convicted in 2014, but this court vacated
that conviction based on erroneous evidentiary rulings.
At the second trial, after seven days of testimony—including from the other ArthroCare executives involved
in the scheme—a jury convicted Baker on charges of
wire fraud, securities fraud, making false statements
to the SEC, and conspiracy to commit wire fraud and
securities fraud.
Baker appealed, raising challenges to the district
court’s evidentiary rulings and jury instructions. Finding no reversible error, we AFFIRM.
I.

FACTS AND PROCEEDINGS

A. Factual Background
Michael Baker was the CEO of ArthroCare, a publicly traded medical-device company based in Austin,

App. 3
Texas. ArthroCare’s products used a technology that
allowed doctors to cut, seal, and remove tissue at a low
temperature and in a minimally invasive manner. ArthroCare sold its products to hospitals and surgery
centers through sales representatives, sales agents,
and, relevant here, distributors. As CEO, Baker was
involved in ArthroCare’s day-to-day operations. He
worked closely with other senior executives, including
Michael Gluk, the Chief Financial Officer, John Raffle,
the Senior Vice President of Operations, David Applegate, the Vice President of the “spine division,” and
Steve Oliver, the Senior Director of Financial Planning.1
Baker set growth targets for the company and
oversaw a “channel-stuffing” operation to inflate ArthroCare’s revenue numbers. Baker, as well as Gluk,
Raffle, and Applegate, hid the fraudulent nature of this
operation from ArthroCare’s board of directors, audit
committee, and auditors. They also made false statements to investors about the company’s revenue projections and relationships with its distributors. When
all this was uncovered, ArthroCare restated its past
earnings and revenue, causing its stock price to drop
and its investors to sustain significant losses.

1

Raffle described Baker’s “inner circle” at the company and
testified that he did not “believe anyone held anything back from
this group when we were there. . . . [I]t was a small company, we
were working together to achieve a goal, and we talked about everything.” Gluk testified to the executives’ “informal” “open-door”
working environment and that he and Baker would talk “at least
once a day.”

App. 4
This court previously described the basic structure
of the channel-stuffing scheme between ArthroCare
and one of its distributors, DiscoCare; Baker’s false
statements to investors about that relationship; and
how the fraud was uncovered:
“Channel stuffing” is a fraudulent scheme
companies sometimes attempt, in an effort
to smooth out uneven earnings—typically to
meet Wall Street earnings expectations. Specifically, a company that anticipates missing
its earnings goals will agree to sell products
to a coconspirator. The company will book
those sales as revenue for the current quarter,
increasing reported earnings. In the following
quarter, the coconspirator returns the products, decreasing the company’s reported earnings in that quarter. Effectively, the company
fraudulently “borrows” earnings from the future quarter to meet earnings expectations in
the present. Thus, in the second quarter, the
company must have enough genuine revenue
to make up for the “borrowed” earnings and
to meet that quarter’s earnings expectations.
If the company does not meet expectations
in the second quarter, it might “borrow” everlarger amounts of money from future quarters, until the amounts become so large that
they can no longer be hidden and the fraud is
revealed.
ArthroCare carried out exactly this fraud,
with DiscoCare playing the role of coconspirator. Over several years, ArthroCare fraudulently “borrowed” around $26 million from

App. 5
DiscoCare. This “borrowing” occurred by directing DiscoCare to buy products from ArthroCare on credit, with the agreement that
ArthroCare would be paid only when DiscoCare could sell those products. Although this
can be a legitimate sales strategy, it was
fraudulent here because DiscoCare purchased
medical devices that it knew it could not sell
reasonably soon for the sole purpose of propping up ArthroCare’s quarterly earnings. This
fraud was carried out under the day-to-day
supervision of John Raffle, the Vice President
of Strategic Business Units, and of David Applegate, another [ArthroCare] executive.
DiscoCare’s business model (apart from
the accounting fraud) was potentially wrongful, though no charges were brought. DiscoCare provided a medical device for which most
insurers refused reimbursement. To sell its
device, DiscoCare reached agreements with
plaintiffs’ attorneys in civil actions for personal injuries. These agreements resulted in
the majority of DiscoCare’s sales. Under this
agreement, DiscoCare would treat clients of
the attorneys. The plaintiffs’ attorneys would
then cite the expense of their clients’ treatment as a reason for defendants to settle
personal injury lawsuits. DiscoCare also allegedly illegally coached doctors on which billing codes to use, in an effort to increase
insurance reimbursements. This practice allegedly went as far as instructing doctors to
perform an unnecessary surgical incision to
classify the treatment as a surgery. No
charges were filed on any of this conduct.

App. 6
ArthroCare subsequently purchased Disco
Care for $25 million, a price that far exceeded
its true value (DiscoCare had no employees at
the time). During this purchase, the fraud began to unravel, with media reports alleging
accounting improprieties. To reassure investors, Gluk and Baker made several false statements during a series of conference calls. As
evidence mounted, the audit committee of ArthroCare’s board of directors commissioned
an independent investigation by forensic accountants and the law firm Latham & Watkins. As a result of this investigation, the
board determined that Raffle and Applegate
had committed fraud and that Gluk and
Baker had not adequately supervised them.
The board restated earnings, resulting in a
significant drop in the value of ArthroCare
stock. The board fired Raffle and Applegate for
their roles in the fraud. The board also fired
Gluk, determining that he had been remiss in
not detecting the fraud earlier. Finally, the
board fired Baker, determining that he should
have implemented better internal controls.2
After the Securities and Exchange Commission
(“SEC”) and the Department of Justice (“DOJ”) investigated, a grand jury indicted Baker and Gluk on
charges for wire fraud, securities fraud, making false
statements to the SEC, and conspiracy to commit wire
fraud and securities fraud.

2

United States v. Gluk, 831 F.3d 608, 611–12 (5th Cir. 2016)
(amended opinion on petition for panel rehearing).

App. 7
B. Procedural Background
Baker has been convicted twice for his conduct relating to the fraud at ArthroCare. At the first trial in
June 2014, a jury convicted Baker and Gluk on all
counts. On appeal, this court vacated Baker’s and
Gluk’s convictions on evidentiary grounds and remanded for a new trial.3
On remand, Gluk admitted that he had participated in the fraud, agreed to cooperate and testify
against Baker, and pleaded guilty to conspiracy to
commit wire fraud and securities fraud. The government retried Baker, this time with Gluk as a witness.
The facts established at the second trial largely track
the facts in the first trial, as this court set them out in
the previous appeal.4 The government put on thirteen
witnesses, including: Gluk,5 Raffle,6 Applegate,7 Oliver,8 ArthroCare’s Chief Medical Officer and Audit
3

Id. at 610.
See id. at 611–612.
5
Gluk testified that he “conspired with Mike Baker, John
Raffle, David Applegate and others to misrepresent the accounts
of ArthroCare Corporation, to engage in channel stuffing and hide
the nature of the relationship between DiscoCare and ArthroCare, and as a result of all that, [ ] filed incorrect statements with
the Securities and Exchange Commission.”
6
Raffles testified that he had “an agreement” with Baker to
engage in channel stuffing to “manipulate ArthroCare’s earnings
and revenue numbers.”
7
Applegate testified that he had an agreement with Baker
“[n]ot to disclose DiscoCare and particularly not to disclose the
personal injury aspect of DiscoCare.”
8
Oliver testified that he participated in a scheme with Baker
to “manipulate revenue and income in order to achieve targets
4

App. 8
Committee chairman, and several analysts and investors who testified to their reliance on Baker’s statements.
At trial, Baker’s counsel conceded that a fraud had
occurred at ArthroCare, but the defense was that Gluk,
Raffle, and Applegate had orchestrated it without
Baker’s knowledge. Baker’s counsel attempted to show
that although Baker was generally aware of the nature
of DiscoCare’s business, he did not have specific knowledge about the fraudulent details, or he learned about
them too late. Baker’s counsel also sought to undermine Gluk’s, Raffle’s, and Applegate’s credibility based
on their plea deals with the government and their own
participation in the DiscoCare scheme. Baker did not
testify or present witnesses, but his counsel did introduce exhibits, including the SEC memoranda that this
court had held were admissible.
The jury convicted Baker on twelve counts and acquitted him on two of the wire fraud counts and one
false statement count. The trial court then (1) sentenced him to a 240-month term of imprisonment and
five years of supervised release; (2) imposed a $1 million fine; and (3) ordered that he forfeit $12.7 million.
Baker timely appealed.

that were in alignment with what the expectation[ ] of the analyst
community were.”

App. 9
II.

ANALYSIS

Baker challenges his conviction on four grounds.
First, he contends that the FBI case agent’s testimony
was improper “summary witness” testimony. Second,
he asserts that the district court should have admitted
the SEC deposition testimony of Brian Simmons, ArthroCare’s former controller who invoked the Fifth
Amendment and did not testify at Baker’s trial. Third,
he challenges the district court’s jury instruction on
wire fraud, insisting that it did not require the government to prove the “obtain money or property” element
of that offense. Finally, he maintains that the district
court erred by refusing to instruct the jury on “advance
knowledge” for accomplice liability under Rosemond v.
United States, 134 S. Ct. 1240 (2014). We address each
issue in turn.
A. Summary Witness Testimony
1. Background
FBI Special Agent Steven Callender was the case
agent. He reviewed many of the documents admitted
into evidence and testified at trial. Baker contends
that Agent Callender’s testimony was impermissible
“summary witness” testimony.
Baker objected at trial to Agent Callender’s testimony. The district court overruled his objection and allowed Agent Callender to testify, but stated that its
ruling did not stop Baker’s counsel “from making an
objection if [the testimony] gets into substantive evidence. If he’s just talking about his research of

App. 10
documents, that’s tangible, then he can go into the
summary. But if he gets into any other testimony, feel
free to object.”
When the prosecutor asked Agent Callender to explain his summary charts setting out the exhibits that
corresponded to each count in the indictment, Baker’s
counsel objected to the witness “being asked whether
or not these are the exhibits that correspond to those
counts in the indictment.” The district court overruled
that objection, stating “I think this is a very complicated case.” The court then gave the jury a limiting
instruction about the use of demonstratives and summary witnesses:
[L]et me remind you, a demonstrative evidence is really not evidence. When he moves
to introduce it, he’s just giving notice that he’s
got a [sic] demonstrative evidence. If we had a
great big blackboard or bulletin board while
he presents a witness, he could have the witness – or he can draw on it with regard to the
witness’ testimony. So this is not evidence. It
is merely an illustration because they’re going
to use this FBI agent as a summary witness,
and you’ll give it whatever substance that you
think it deserves, if any.
Agent Callender then testified. His testimony consisted primarily of reading and explaining (1) exhibits
that had already been admitted at the trial and (2) new
exhibits that were being admitted through his testimony. The exhibits he testified about included audio
clips, transcripts of conference calls, documents showing

App. 11
ArthroCare’s organizational charts, board presentations, payroll information, emails between Baker and
other executives, and SEC filings.
2. Analysis
We review “the admission of evidence, including
summaries and summary testimony, for abuse of discretion.”9 “If there is error, it is ‘excused unless it had a
substantial and injurious effect or influence in determining the jury’s verdict.’ ”10
We “allow[] summary witness testimony in ‘limited
circumstances’ in complex cases,” but have “repeatedly
warned of its dangers.”11 “While such witnesses may be
appropriate for summarizing voluminous records, as
contemplated by Rule 1006, rebuttal testimony by an
advocate summarizing and organizing the case for the
jury constitutes a very different phenomenon, not justified by the Federal Rules of Evidence or our precedent.”12 “In particular, ‘summary witnesses are not to
be used as a substitute for, or a supplement to, closing
argument.’ ”13
9

United States v. Armstrong, 619 F.3d 380, 383 (5th Cir.

2010).
10

Id. (quoting United States v. Harms, 442 F.3d 367, 375 (5th
Cir. 2006)).
11
Id. at 385 (quoting United States v. Nguyen, 504 F.3d 561,
572 (5th Cir. 2007)).
12
Id. (quoting United States v. Fullwood, 342 F.3d 409, 414
(5th Cir. 2003)).
13
Id.

App. 12
“To minimize the danger of abuse, summary testimony ‘must have an adequate foundation in evidence
that is already admitted, and should be accompanied
by a cautionary jury instruction.’ ”14 “Moreover, ‘[f ]ull
cross-examination and admonitions to the jury minimize the risk of prejudice.’ ”15
i. Summary Witnesses in General
Baker claims that, in general, summary witness
testimony is inadmissible. He argues that summary
witnesses lack personal knowledge of the matter to
which they are testifying, so Rule 602 of the Federal
Rules of Evidence prohibits that type of testimony. He
also contends that, because Rule 1006, which governs
summaries, is located within Article X of the Rules
that govern “writings and recordings”—and not “witnesses”—Rule 1006 does not allow live summary witnesses.
Regrettably, Baker does not cite United States v.
Armstrong, the key Fifth Circuit case that refutes
these arguments. Contrary to Baker’s contention that
summary witnesses are inadmissible, this circuit expressly allows summary witnesses to summarize voluminous records in complex cases.16

14

Id. (quoting United States v. Bishop, 264 F.3d 535, 547 (5th
Cir. 2001)).
15
Id. (quoting Bishop, 264 F.3d at 547).
16
Id.

App. 13
ii. Agent Callender’s Testimony
The next issue is whether Agent Callender’s testimony permissibly summarized the voluminous evidence, or impermissibly “organiz[ed] the case for the
jury” or served as a “substitute” for closing argument.17
Baker contends that Agent Callender’s testimony
was “wholly argumentative,” drew inferences for the
jury, and impermissibly summarized the prosecutor’s
closing argument. Baker flags several parts of Agent
Callender’s testimony as objectionable: (1) Agent Callender read an email in which Raffle indicates that
Baker had approved adding DiscoCare employees to
the ArthroCare payroll; (2) the prosecutor asked Agent
Callender whether a letter in an employee’s file was
“consistent or inconsistent” with ArthroCare’s organizational charts; (3) testimony about a conference call
at which Gluk discussed a “small success fee” paid to
DiscoCare and subsequent emails showing a related
$10 million payment to DiscoCare; (4) Agent Callender’s discussion of emails that Baker had sent to himself containing his monthly stock portfolio; and (5)
Agent Callender’s testimony about particular exhibits
that corresponded to the counts listed on a demonstrative chart. Baker describes this testimony as “highlight[ing] key pieces of prosecution evidence,” “walk[ing]
through the charges count by count,” and “indistinguishable from a closing argument.”
The government counters that most of Agent
Callender’s testimony was not “summary witness”
17

See id.

App. 14
testimony, but rather was about exhibits that were being admitted during his testimony. The government
also argues that the large number of documents and
the complexity of the case justified the use of a summary witness.
When Agent Callender began testifying, the government introduced twenty-one new exhibits, each of
which was admitted. Much of his testimony consisted
of reading the contents of those exhibits aloud. Baker’s
specific objections are primarily to the parts of Agent
Callender’s testimony that introduced those new exhibits. But, this type of testimony is not summary testimony.18
In contrast, Agent Callender’s testimony that tied
specific, already-admitted exhibits to the substantive
indictment counts listed on a demonstrative chart is
summary testimony. Such testimony is permissible in
complex cases with voluminous evidence. Contrary to
Baker’s contention that this was not a complex case,
channel stuffing is a relatively complicated type of
fraud. The jury heard seven days of testimony; there
were 15 charges; and the district court stated that it
was “a very complicated case.” The evidence was also
voluminous. The government introduced 193 exhibits
and Baker introduced 87. Agent Callender gave a

18

See United States v. Castillo, 77 F.3d 1480, 1499 (5th Cir.
1996) (“[T]he witness may testify to facts that were ‘personally
experienced’ by him, even though this testimony ‘bolsters’ the government’s other evidence.”).

App. 15
“rough estimate” that the investigation involved “between three and seven million” documents.
A review of the testimony shows that, although
Agent Callender highlighted some key pieces of evidence, the testimony did not draw inferences for the
jury, was not “wholly argumentative,” and did not serve
as a substitute for closing argument.19 Rather, the testimony consisted of reading the contents of exhibits
and sorting through the evidence to show how the documents related to each other and to the charges in the
indictment.20 This type of testimony is different from
the testimony that this circuit has excluded, such as
allowing a case agent “to recap a significant portion of
the testimony already introduced by the Government”
during a rebuttal case,21 putting on a summary witness
19

See United States v. Echols, 574 F. App’x 350, 356 (5th Cir.
2014) (“[The summary witness] only succinctly referenced patients’ and doctors’ testimony to remind the jury which witnesses
the documentary evidence related to and said virtually nothing
about the testimony of the government’s principal trial witnesses.”).
20
Here is one representative example:
Q. Can we take a look at Count 5? Can you tell the
jury about what government exhibits relate to Count
5?
A. Count 5 relates to an email from Mike Gluk to
Mike Baker, who were both in Texas, and it was routed
through ArthroCare’s servers in California. And the email was sent March 20, 2008. It’s Exhibit 379.
Q. All right. And that’s been put into evidence, correct?
A. It has.
21
Fullwood, 342 F.3d at 412–13.

App. 16
“before there [was] any evidence admitted for the witness to summarize,”22 or using a summary witness to
“merely [ ] repeat or paraphrase the in-court testimony
of another as to ordinary, observable facts. . . .”23 We
conclude that Agent Callender’s testimony was permissible.
To the extent that Agent Callender’s testimony
went too far, all three curatives were present: (1) the
testimony had an adequate foundation in the evidence
already admitted; (2) the district court gave the jury a
limiting instruction about summary evidence generally; and (3) Baker’s counsel cross-examined Agent
Callender.24 These minimized the risk of prejudice, so
any error was harmless.25
B. Brian Simmons’s SEC Deposition Testimony
In 2010, the SEC deposed Brian Simmons, ArthroCare’s former controller, in its civil investigation of the
company. At the first trial, Baker sought to subpoena
Simmons, but Simmons refused to testify, asserting
his Fifth Amendment right against self-incrimination.
Baker and Gluk sought to admit Simmons’s SEC

22

United States v. Griffin, 324 F.3d 330, 348–49 (5th Cir.

2003).
23
24
25

2018).

Castillo, 77 F.3d at 1499–1500.
Armstrong, 619 F.3d at 385.
See United States v. Spalding, 894 F.3d 173, 186 (5th Cir.

App. 17
deposition testimony under Rule 804(b)(1). In a written order, the district court excluded the testimony.
At the second trial, after Raffle, Applegate, and
Gluk testified that Simmons had participated in the
fraud at ArthroCare,26 Baker again subpoenaed Simmons. But Simmons refused to testify on Fifth Amendment grounds, and Baker again sought to admit
excerpts of Simmons’s SEC deposition testimony.
Baker proffered excerpts of that testimony, in which
Simmons (1) denied wrongdoing and awareness of improper activities at ArthroCare and (2) stated that
ArthroCare’s audit committee and outside auditor,
PricewaterhouseCoopers, were aware of a “bill-andhold” practice for ArthroCare’s sales to DiscoCare. The
district court, referencing its order in the first trial,
again excluded the testimony.
Rule 804(b)(1) provides exceptions to the rule
against hearsay for “former testimony” of witnesses
who are unavailable. It provides:
(b)

...
(1) Former Testimony. Testimony that:
(A) was given as a witness at a
trial, hearing, or lawful deposition,
whether given during the current
proceeding or a different one; and
(B) is now offered against a party
who had – or, in a civil case, whose
predecessor in interest had – an

26

Simmons was an unindicted co-conspirator.

App. 18
opportunity and similar motive to develop it by direct, cross-, or redirect
examination.27
Simmons’s deposition testimony contains hearsay
and his invocation of the Fifth Amendment made him
unavailable.28 The issues therefore are (1) whether the
DOJ and the SEC are the “same party” or “predecessors in interest,” and (2) if so, whether the SEC, in its
civil investigation of ArthroCare, had both the opportunity and a similar motive to the DOJ in developing
Simmons’s testimony.
We review the district court’s exclusion of the testimony for abuse of discretion.29 We conclude that the
SEC and the DOJ were not the same party for 804(b)
purposes under these circumstances. But even if the
agencies were the same party, they did not have sufficiently similar motives in developing Simmons’s testimony.
1. Same Party
This court has not decided whether the SEC and
the DOJ are the same party for 804(b) purposes.30 The
case law on this issue is limited, and no court has expressly held that the SEC and the DOJ are the same

27

FED. R. EVID. 804(b)(1).
Id. R. 804(a)(1).
29
United States v. Kimball, 15 F.3d 54, 55 (5th Cir. 1994).
30
Neither party contends that the SEC was the DOJ’s “predecessor in interest” at Simmons’s deposition.
28

App. 19
party.31 Courts sometimes proceed directly to the “similar motive” inquiry.32
Baker contends that the two agencies are the
same party because they are both Executive Branch
agencies. He relies primarily on United States v.
Sklena, 692 F.3d 725, 730–32 (7th Cir. 2012), which
held that the Commodity Futures Trading Commission (“CFTC”) and the DOJ were the same party for
804(b) purposes. He also relies on Boone v. Kurtz, 617
F.2d 435, 436 (5th Cir. 1980), in which we held that different government agencies were the same party for
res judicata purposes.
In response, the government cites United States v.
Martoma, 12-Cr. 973, 2014 WL 5361977, at *3–5 & n.5
(S.D.N.Y. Jan. 8, 2014), in which the district court considered whether an unavailable co-conspirator’s prior
SEC deposition was admissible at a later criminal

31

See United States v. Sklena, 692 F.3d 725, 731 (7th Cir.
2012) (“There is very little law on the question whether two government agencies, or as in this case the United States and a subsidiary agency, should be considered as different parties for
litigation purposes, or if they are both merely agents of the United
States.”).
32
See, e.g., United States v. Whitman, 555 F. App’x 98, 103
(2d Cir. 2014) (summary order) (“Assuming arguendo that the
SEC lawyers and the trial prosecutors can be treated as the same
party, the district court reasonably concluded that they had differing motivations to develop testimony by cross-examination.”);
see also United States v. Kennard, 472 F.3d 851, 855 (11th Cir.
2006) (not addressing the “same party” issue and instead addressing only whether the SEC and the DOJ had similar motives).

App. 20
trial. The Martoma court held that the SEC and DOJ
were not the same party for 804(b) purposes.33
In Sklena, the Seventh Circuit relied on the significant control that the DOJ exercised over the CFTC,
including the CFTC’s statutory mandate to report to
the DOJ.34 The court reasoned that the “statutory control mechanism suggests to us that, had the Department wished, it could have ensured that the CFTC
lawyers included questions of interest to the United
States when they deposed [the non-testifying codefendant].”35 The court’s holding also relied on the agencies’ “closely coordinated roles on behalf of the United
States in the overall enforcement of a single statutory
scheme.”36 The Sklena court concluded that “[f ]unctionally, the United States is acting in the present case
through both its attorneys in the Department and one
of its agencies, and we find this to be enough to satisfy
the ‘same party’ requirement of Rule 804(b)(1).”37
Here, the district court determined that the SEC
and the DOJ were not the same party because the SEC
conducted an independent investigation of ArthroCare
and its employees and independently pursued its own
criminal and civil actions. On appeal, Baker disagrees
with that conclusion. He points to several emails
33

United States v. Martoma, 12-Cr. 973, 2014 WL 5361977,
at *3–5 & n.5 (S.D.N.Y. Jan. 8, 2014).
34
692 F.3d at 731–32 (citing 7 U.S.C. § 13a–1(a), (f )–(g)).
35
Id. at 732.
36
Id.
37
Id.

App. 21
between prosecutors and SEC investigators describing
telephone calls, meetings, and “working together.” According to Baker, these show that the SEC “was functionally working as part of the prosecution team.”
In response, the government points out that (1)
the SEC did not participate in any interviews conducted by the DOJ; (2) the DOJ was not present at any
of the SEC’s depositions; (3) an SEC attorney was not
cross-designated or assigned to the prosecution team;
and (4) the DOJ did not provide the SEC with materials from its investigation. In an order denying the designation of the SEC as part of the prosecution team at
the first trial, the district court concluded that “[w]hile
the SEC provided some material to the Government—
which the Government, in turn, has provided to Defendants—the SEC’s investigation pre-dated and was
independent from the Government’s investigation, and
there was no overlap of personnel or direction.” The
government also notes that when the DOJ formally requested information from the SEC, the SEC faced restrictions responding to that request and limited the
information it provided to the DOJ.
Although there was some cooperation between the
two agencies, it was not extensive enough for the SEC
and the DOJ to be deemed the same party. Baker’s contention that the SEC and the DOJ coordinated closely
is undermined by (1) the telephone calls and meetings
Baker cites occurred after Simmons’s February 2010
deposition and (2) the district court’s specific findings
that the SEC had been uncooperative and limited the
information it provided to the DOJ.

App. 22
Sklena does not mandate a different result. Unlike
the CFTC, the SEC is not statutorily required to report
to the DOJ, nor must the two agencies cooperate to enforce the same statutory scheme. The SEC is an independent agency with its own litigating authority.38
2. Opportunity and Similar Motive
Even if the SEC and the DOJ were deemed to be
the same party, they did not share a sufficiently similar
motive in developing Simmons’s testimony. When, as
here, testimony in a prior civil proceeding is being offered against the government in a subsequent criminal
proceeding, this court considers “(1) the type of proceeding in which the testimony is given, (2) trial strategy, (3) the potential penalties or financial stakes, and
(4) the number of issues and parties.”39

38

In contrast to the CFTC, “the SEC has ‘complete autonomy
in civil prosecutions’ and is not required to report on its activities
to the USAO.” Martoma, 2014 WL 5361977, at *4 & n.5 (quoting
SEC v. Robert Collier & Co. Inc., 76 F.2d 939, 940 (2d Cir. 1935));
see United States v. Klein, 16-cr-422, 2017 WL 1316999, at *6
(E.D.N.Y. Feb. 2, 2017) (“In contrast [to Sklena,] the SEC and
DOJ are independent executive agencies and there is no indication whatsoever that they coordinated their investigations
here.”); see also 15 U.S.C. § 77t (“Whenever it shall appear to the
Commission that any person is engaged or about to engage in any
acts or practices which constitute or will constitute a violation of
the provisions of this subchapter, . . . the Commission may, in its
discretion, bring an action in any district court of the United
States. . . .”).
39
United States v. McDonald, 837 F.2d 1287, 1292 (1988)
(quoting United States v. Feldman, 761 F.2d 380, 385 (7th Cir.
1985)); see also WRIGHT & MILLER, 30B FED. PRAC. & PROC. § 6974

App. 23
At the first trial, the district court excluded the
testimony, ruling that the SEC and the DOJ did not
have sufficiently similar motives. At the second trial,
the district court referenced its previous order and
again excluded Simmons’s testimony. The court added
that there was “no question” that Simmons was “involved in a conspiracy if there was a conspiracy,” and
that he would have had “to be deaf, blind and dumb in
his position not to see it.” The court concluded that (1)
“the SEC ha[d] been totally noncooperative in this
criminal case from the beginning, declined to share any
information to the Department of Justice [or] counsel
in this case for the defense” and would not “provide its
investigators to cooperate in any way”; (2) The SEC’s
civil investigation of ArthroCare was “totally different
from a criminal trial”; and (3) the court’s review of the
SEC deposition testimony showed no “basis for any
cross-examination.”
Even if we assumed that the SEC and the DOJ are
the same party, the agencies did not have sufficiently
similar motives. First, the stakes and burdens of proof
were different: The SEC was in the discovery phase in
relation to potential civil enforcement actions, whereas
the DOJ was investigating for potential criminal involvement after a grand jury indictment. Second, the
focuses and motivations of the investigations were
(2018 ed.) (“The ‘similar motive’ sentiment can be boiled down to
a call for trial courts to analyze: (i) the issue or issues to which
the testimony was addressed, (ii) the degree to which those issues
mattered to the ultimate resolution of the proceeding; and then
(iii) compare those variables across the two proceedings.”).

App. 24
different: The SEC was likely developing a factual
background regarding wrongdoing at the company
generally, whereas the DOJ would have been gathering
evidence to convict specific individuals.40 Third, the
lack of cross-examination shows the agencies’ different
trial strategies: The SEC deposition excerpts show no
sign of cross-examination or additional follow-up questions after Simmons denied his involvement and that
he had any conversations with Baker. In contrast, for
the reasons we have already explained, the agencies
were not coordinating their activity to a degree that
would have led the SEC lawyer to cross-examine Simmons like a criminal prosecutor would have.41

40

See Martoma, 2014 WL 5361977, at *4 (“[T]he purpose of
a deposition in a civil case or an administrative investigation is to
develop investigative leads and to ‘freeze the witness[’s] . . . story.’
. . . The SEC lawyers taking [the co-conspirator’s] deposition were
not attempting to persuade a jury to convict, or even attempting
to persuade a grand jury to indict. Instead, the [co-conspirator’s
SEC deposition] was part of an effort to ‘develop the facts to determine if an [enforcement action] was warranted.’ ” (quoting
DiNapoli, 8 F.3d at 913)).
41
See Whitman, 555 F. App’x at 103 (“The rest of the examination consisted of general inquiries about his relationship to [the
defendant] and his work at [the company], many of which elicited
long, descriptive answers from [the unavailable co-conspirator]
that, unsurprisingly, asserted innocence. A prosecutor seeking to
rebut a trial defense would have pressed the witness, but the
SEC examiner rarely did, for the most part allowing [the coconspirator]’s testimony to stand unquestioned.”); McDonald, 837
F.2d at 1293 (although the DOJ and the former party in a civil
action had “similar status in their respective claims, we find that
the trial strategies were not sufficiently similar” for admission
under Rule 804(b)(1)).

App. 25
The district court did not abuse its discretion in
excluding Simmons’s deposition testimony.
C. The “Obtain Money or Property” Element of
Wire Fraud
Baker next contends that the term “obtain money
or property” in the wire fraud statute, 18 U.S.C. § 1343,
requires the government to plead and prove that Baker
“intended to obtain money or property from deceived
investors.” This challenge to the jury instructions presents a question of statutory interpretation, so we review it de novo.42 We also review de novo Baker’s
contention that the indictment did not charge the elements of the offense.43
Baker asked for a jury instruction defining a
“scheme to defraud” as one “intended to obtain money
or property from the victim by fraudulent means,” and
requiring that the defendant intended to “acquire[ ]
some money or property that the victim gives up.” The
district court denied that request. Instead, the district
court’s jury instructions on wire fraud required, in relevant part:
That the defendant knowingly devised, or intended to devise, any scheme to defraud, that
is to deceive investors about ArthroCare Corporation’s financial condition[.]
...
42
43

United States v. Harris, 740 F.3d 956, 964 (5th Cir. 2014).
United States v. Kay, 359 F.3d 738, 742 (5th Cir. 2004).

App. 26
A “scheme to defraud” means any plan, pattern, or course of action intended to deprive
another of money or property, or bring about
some financial gain to the person engaged in
the scheme.
After the jury convicted Baker, he moved for a
judgment of acquittal. He reasserted his objection to
the definition of a “scheme to defraud,” focusing on the
“or bring about some financial gain to the person engaged in the scheme” language. The district court denied the motion, concluding that “the focus” of a
scheme to defraud is on “depriving the victim of property for some benefit” and that there is “no requirement that a defendant must directly gain or possess
[the victim’s] property.” The court explained that “substantial evidence was presented to show the misleading and fraudulent statements made by Baker induced
investment in ArthroCare,” and that “a rational trier
of fact could have found the goal of the scheme . . . was
to deprive investors of money they otherwise would
have possessed.”
On appeal, Baker challenges this instruction on
two grounds. First, he contends that the wire fraud
statute imposes a “mirror image” requirement. For
support, he relies on the Supreme Court’s decision in
Skilling v. United States, which states that under “traditional” fraud, “the victim’s loss of money or property
supplied the defendant’s gain, with one the mirror image of the other.’ ”44
44

Skilling v. United States, 561 U.S. 358, 400 (2010).

App. 27
Although Baker describes that statement from
Skilling as its holding, a review of the case proves otherwise. In context, the Court was comparing “traditional” fraud with honest-services fraud:
Unlike fraud in which the victim’s loss of
money or property supplied the defendant’s
gain, with one the mirror image of the other,
. . . the honest-services theory targeted corruption that lacked similar symmetry. While
the offender profited, the betrayed party suffered no deprivation of money or property; instead, a third party, who had not been
deceived, provided the enrichment.45
Skilling did not impose a “mirror image” requirement
for wire fraud. As the district court explained, “Skilling
merely commented that traditional fraud features a bilateral relationship—one between the offender and the
victim—while the honest-services theory concerns a
trilateral relationship between bribe-giver, briberecipient, and betrayed party. . . . Skilling did not interpret wire fraud or securities fraud to require proof
the defendant sought to personally acquire money or
property from the victim.” Moreover, no court has held
that a “mirror image” transaction is necessary.46
Baker next points to the language of § 1343, which
provides:

45

Id. (emphasis added).
United States v. Hedaithy, 392 F.3d 580, 601 (3d Cir.
2004); see United States v. Finazzo, 850 F.3d 94, 105–07 (2d Cir.
2017).
46

App. 28
Whoever, having devised or intending to devise any scheme or artifice to defraud, or for
obtaining money or property by means of false
or fraudulent pretenses, . . . transmits or
causes to be transmitted by means of wire, . . .
any writings, signs, signals, pictures, or
sounds for the purpose of executing such
scheme or artifice, shall be fined . . . or imprisoned not more than 20 years, or both.47
Baker compares the statute’s “obtaining money or
property” language with the jury instruction’s definition of a “scheme to defraud” that required that the
scheme intended to “bring about some financial gain to
the person engaged in the scheme.” According to Baker,
the instruction did not require the government to
prove that he intended to obtain property from a victim, but instead allowed for a conviction based on a
scheme that was only intended to bring about a financial gain to Baker.
Baker relies on Sekhar v. United States, a case interpreting the Hobbs Act, which held that “a defendant
must pursue something of value from the victim that
can be exercised, transferred, or sold. . . .”48 However,
“[u]nlike the mail fraud statute, the Hobbs Act expressly requires the Government to prove that the defendant ‘obtain[ed] property from another.’ ”49

47

18 U.S.C. § 1343.
570 U.S. 729, 736 (2013).
49
Hedaithy, 392 F.3d at 602 n.21; see Finazzo, 850 F.3d at
107 (“[I]n contrast to the Hobbs Act extortion provision, the mail
48

App. 29
He also relies on United States v. Honeycutt, a case
interpreting the federal forfeiture statute, which held
that a defendant may not “be held jointly and severally
liable for property that his co-conspirator derived from
a crime but that the defendant himself did not acquire.”50 But Honeycutt did not consider the wire fraud
statute and therefore did not broaden the Court’s interpretation of that offense.51
Section 1343 does not require an intent to obtain
property directly from a victim. In United States v.
Hedaithy, the Third Circuit considered a similar assertion. There, the defendants argued that a scheme must
be “designed to actually ‘obtain’ the victim’s property.”
The court rejected that argument on several grounds:

and wire fraud statutes do not require a defendant to obtain or
seek to obtain property. . . .”).
50
Honeycutt v. United States, 137 S. Ct. 1626, 1630 (2017).
51
See Porcelli v. United States, 404 F.3d 157, 162 (2d Cir.
2005) (“The fact that the Hobbs Act and the mail and wire fraud
statutes contain the word ‘obtain’ does not necessitate imposing
[a] construction of a wholly separate statute onto this Court’s preexisting construction of the mail fraud statute.”).

App. 30
We reject [that argument], primarily because it is inconsistent with the Supreme
Court’s decision in Carpenter [v. United
States, 484 U.S. 19 (1987)]. Although the defendants in Carpenter clearly “obtained” the
Journal’s confidential business information,
this was not the conduct, according to the
Court, that constituted the mail fraud violation. Rather, the conduct on which the Court
focused was the act of fraudulently depriving
the Journal of the exclusive use of its information.
Furthermore, Defendants’ argument misconstrues the language of other relevant decisions. For example, they rely upon the
Supreme Court’s statement in Cleveland [v.
United States] that “[i]t does not suffice, we
clarify, that the object of the fraud may become property in the recipient’s hands; for
purposes of the mail fraud statute, the thing
obtained must be property in the hands of the
victim.” [531 U.S. 12, 15 (2000)]. The context
in which this statement was written, however,
clarifies that the Court was not setting out a
requirement that a mail fraud scheme must
be designed to “obtain” property. Rather, this
language reflects the Court’s conclusion that
a victim has been defrauded of “property,”
within the meaning of the mail fraud statute,
only if that which the victim was defrauded of
is something that constitutes “property” in the
hands of the victim.
Defendants also insist that their interpretation of the mail fraud statute is

App. 31
supported by the Supreme Court’s holdings, in
McNally and Cleveland, that § 1341’s second
clause—“or for obtaining money or property
by means of false or fraudulent promises”
—“simply modifies” the first clause—“any
scheme or artifice to defraud.” McNally, 483
U.S. at 359, 107 S. Ct. 2875; Cleveland, 531
U.S. at 26, 121 S. Ct. 365. Defendants construe
this language as meaning that any violation
of the mail fraud statute must involve a
scheme for obtaining the victim’s property. We
do not read McNally or Cleveland as providing any such requirement. . . . In neither case,
. . . did the Court hold that a mail fraud violation requires that the second clause of § 1341
be satisfied.52
In addition to the Third Circuit’s persuasive rejection of the argument that Baker advances, this court,
in United States v. McMillan, held that an indictment
sufficiently charged mail fraud in the context of a
scheme to “defraud the victim insofar as victims were
left without money that they otherwise would have
possessed.”53 This court also explained that the “issue
is whether the victims’ property rights were affected
by the misrepresentations.”54
The jury instructions here allowed for a conviction
if Baker intended to deceive the victims out of their
money for his own financial benefit. The evidence at
52
53
54

Hedaithy, 392 F.3d at 601–02.
600 F.3d 434, 449 (5th Cir. 2010).
Id.

App. 32
trial showed that Baker did just that: (1) He made false
statements to investors and potential investors to induce them to hold onto or buy ArthroCare stock; (2) he
knew the statements did not accurately reflect ArthroCare’s business model or revenue projections; and (3)
the scheme was intended to benefit Baker via bonuses
and appreciation of his own stock options. By inducing
investments in ArthroCare, the scheme affected the
victims’ property rights by wrongfully leaving them
“without money that they otherwise would have possessed.”55
The jury instructions were not erroneous.
D. Accomplice and Co-conspirator Liability
Baker was charged as both a principal and an
aider or abettor under 18 U.S.C. § 2 for the wire and
securities fraud charges. The district court’s jury instructions on “Aiding and Abetting (Agency)” included
some general language about accomplice liability, then
stated:
You must be convinced that the Government has proved each of the following beyond
a reasonable doubt:
First:

55

That the offenses alleged in Counts
Two through Twelve were committed
by some person;

McMillan, 600 F.3d at 449.

App. 33
Second: That the defendant associated with
the criminal venture;
Third:

That the defendant purposefully participated in the criminal venture; and

Fourth: That the defendant sought by action
to make that venture successful.
“To associate with the criminal venture”
means that the defendant shared the criminal
intent of the principal. This element cannot be
established if the defendant had no knowledge of the principal’s criminal venture.
“To participate in the criminal venture”
means that the defendant engaged in some affirmative conduct designed to aid the venture
or assist the principal of the crime.
This instruction tracked the Fifth Circuit Pattern
Instruction on accomplice liability.56 Baker challenges
this instruction as lacking an express “advance knowledge” instruction based on Rosemond, a Supreme Court
decision addressing the federal aiding and abetting
statute’s mens rea requirements.
Although Baker preserved that objection and
briefed the Rosemond issue on appeal, we need not address it because the jury also convicted Baker as a coconspirator. In addition to the charges for aiding and
abetting wire and securities fraud, Baker was also

56

FIFTH CIRCUIT PATTERN CRIM. JURY INSTRUCTIONS § 2.4.

App. 34
charged with and convicted of “Conspiracy to Commit
Wire Fraud and Securities Fraud.”57
“In Pinkerton, the Supreme Court held that conspirators are criminally liable for substantive crimes
committed by other conspirators in furtherance of the
conspiracy, unless the crime ‘did not fall within the
scope of the unlawful project, or was merely a part of
the ramifications of the plan which could not be reasonably foreseen as a necessary or natural consequence of the unlawful agreement.’ ”58 “A substantive
conviction cannot be upheld solely under Pinkerton unless the jury was given a Pinkerton instruction.”59
Here, the jury (1) was properly instructed on the
Pinkerton theory of co-conspirator liability and (2) convicted Baker on a separate charge for conspiracy to
commit wire and securities fraud.60 The evidence at
trial showed that Baker instructed others to participate in the channel-stuffing scheme and approved the
statements covering it up. The substantial evidence of
Baker’s involvement establishes that the fraudulent
acts were reasonably foreseeable by him and done in
furtherance of the conspiracy. We therefore affirm
Baker’s conviction on the wire and securities fraud
charges under the Pinkerton theory of co-conspirator
57

ROA.3885.
United States v. Gonzales, 841 F.3d 339, 344 n.4 (5th Cir.
2016) (quoting Pinkerton v. United States, 328 U.S. 640, 647–48
(1946)).
59
United States v. Alaniz, 726 F.3d 586, 614 (5th Cir. 2013)
(quotation omitted).
60
ROA.3875–76.
58

App. 35
liability and do not address Baker’s challenge to the
jury instructions under Rosemond.61
E. Baker’s “Other” Objections
Baker contends that, in addition to the purported
Rosemond error, the jury instructions were flawed in
several other ways. Baker did not object to these issues
in the district court, so they are reviewed for plain error.62 None of these challenges has merit under the
plain-error test.
First, Baker challenges the instruction that: “If
another person is acting under the direction of the defendant or if the defendant joins another person and
performs acts with the intent to commit a crime, then
the law holds the defendant responsible for the acts
and conduct of such other persons just as though the
defendant had committed the acts or engaged in such
61

See United States v. Saunders, 605 F. App’x 285, 288–89
(5th Cir. 2015) (“We will assume that the jury charge on aiding
and abetting is inadequate under Rosemond. [The defendant’s]
rights, however, were not affected because the jury was given a
correct Pinkerton instruction. . . . Given the copious evidence under the Pinkerton theory, any inadequacy in the district court’s
aiding and abetting instruction did not affect [the defendant’s]
substantial rights.”); see also United States v. Hare, 820 F.3d 93,
105 (4th Cir.), cert. denied, 137 S. Ct. 224 (2016) (same); United
States v. Stubbs, 578 F. App’x 114, 118 n.6 (3d Cir. 2014) (“Since
we find the evidence sufficient to convict [the defendant] under a
Pinkerton theory of vicarious liability, we need not decide whether
there was sufficient evidence of [the defendant’s] advance knowledge under Rosemond.”).
62
United States v. Fuchs, 467 F.3d 889, 901 (5th Cir. 2006).

App. 36
conduct.” Baker contends that this statement “is no
longer legally accurate after Rosemond,” and that the
instruction implied that he could be liable for the
crimes of ArthroCare’s employees who were “acting under” his direction.
This instruction prefaced the formal elements of
accomplice liability. Given that context, the instruction
simply set out the basic principle of accomplice liability
and was followed by a formal four-part definition. This
instruction was not erroneous.63
Next, Baker contends that the Pinkerton instruction was improper, noting that Pinkerton is controversial and has been criticized by courts. He also contends
that “there was no evidentiary basis” for the Pinkerton
instruction. But this circuit has repeatedly applied
Pinkerton,64 and the evidence at trial—including testimony from three co-conspirators—provided a sufficient basis for the instruction.
Finally, Baker argues that the court’s “reckless indifference” instruction was improper because it conflicted with the wire fraud statute’s required “specific
intent to defraud.”65 But we have approved such
63

See Kay, 513 F.3d at 463 (“When reviewing the jury’s understanding of the charge, we look to the total context of the trial,
with the benefit of arguments by all counsel.”).
64
E.g., Gonzales, 841 F.3d at 351–53.
65
The district court instructed the jury that a representation
is false if it “is made with reckless indifference as to its truth or
falsity” and that “[r]eckless indifference means the omission or
misrepresentation was so obvious that the defendant must have
been aware of it.”

App. 37
instructions.66 The “reckless indifference” instruction
was not erroneous.
III.

CONCLUSION

Baker’s conviction is, in all respects, AFFIRMED.

66

See United States v. Puente, 982 F.2d 156, 159 (5th Cir.
1993) (“ ‘Reckless indifference’ has been held sufficient to satisfy
§ 1001’s scienter requirement so that a defendant who deliberately avoids learning the truth cannot circumvent criminal sanctions.”).

App. 38
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-51034
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
MICHAEL BAKER,
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
-----------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed Jun. 27, 2019)
(Opinion 4/26/19, 5 Cir., ___, ___ F.3d ___)
Before WIENER, SOUTHWICK, and COSTA, Circuit
Judges.
PER CURIAM:
(🗸) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH CIR.

App. 39
R. 35), the Petition for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Jacques Wiener, Jr.
UNITED STATES
CIRCUIT JUDGE

App. 40
IN THE UNITED STATES DISTRICT COURT
OR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
UNITED STATES
OF AMERICA

CAUSE NO.
A-13-CR-346-SS

-vsMICHAEL BAKER

JURY INSTRUCTIONS
(Filed Aug. 17, 2017)
*

*

*

Counts Two through Ten—Wire Fraud
Counts Two through Ten of the Superseding Indictment charge the defendant with nine counts of
wire fraud, in violation of Title 18, United States Code,
Section 1343. Title 18, United States Code, Section 1343,
makes it a crime for anyone to use interstate wire communications in carrying out a scheme to defraud.
For you to find the defendant guilty of this crime,
you must be convinced that the Government has proved
each of the following beyond a reasonable doubt:
First:

That the defendant knowingly devised,
or intended to devise, any scheme to
defraud, that is to deceive investors
about ArthroCare Corporation’s financial condition;

Second: That the scheme to defraud employed
false, material representations;

App. 41
Third:

That the defendant transmitted by
way of wire communication, in interstate commerce, any writing or
sound for the purpose of executing
such scheme; and

Fourth: That the defendant acted with a specific intent to defraud.
A “scheme to defraud” means any plan, pattern, or
course of action intended to deprive another of money
or property, or bring about some financial gain to the
person engaged in the scheme.
A “specific intent to defraud” means a conscious,
knowing intent to deceive or cheat someone.
A representation is “false” if it is known to be untrue or is made with reckless indifference as to its
truth or falsity. Reckless indifference means the omission or misrepresentation was so obvious that the defendant must have been aware of it. A representation
would also be “false” if it constitutes a half truth, or
effectively omits or conceals a material fact, provided
it is made with the intent to defraud.
A representation is “material” if it has a natural
tendency to influence, or is capable of influencing, the
decision of the person or entity to which it is addressed.
It is not necessary that the Government prove
all of the details alleged in the Superseding Indictment concerning the precise nature and purpose of
the scheme. What must be proved beyond a reasonable doubt is that the defendant knowingly devised or

App. 42
intended to devise a scheme to defraud by means of
false or fraudulent pretenses, representations, or promises that was substantially the same as the one alleged
in the Superseding Indictment.
It is also not necessary that the Government prove
that the material transmitted by wire communications
was itself false or fraudulent, or that the use of the interstate wire communications facilities was intended
as the specific or exclusive means of accomplishing
the alleged fraud. What must be proved beyond a reasonable doubt is that the use of the interstate wire
communications facilities was closely related to the
scheme because the defendant either wired something
or caused it to be wired in interstate commerce in an
attempt to execute or carry out the scheme.
The alleged scheme need not actually succeed in
defrauding anyone.
To “cause” interstate wire communications facilities to be used is to do an act with knowledge that the
use of the wire communications facilities will follow in
the ordinary course of business or where such use can
reasonably be foreseen.
Each separate use of the interstate wire communications facilities in furtherance of a scheme to defraud
by means of false or fraudulent pretenses, representations, or promises constitutes a separate offense. The
Government and the defendant have agreed the communications charged in Counts Two through Ten of the
Superseding Indictment were wire communications
transmitted in interstate commerce.

App. 43
Counts Eleven and Twelve—Securities Fraud
Counts Eleven and Twelve of the Superseding Indictment charge the defendant with two counts of securities fraud, in violation of Title 18, United States
Code, Section 1348, Title 18, United States Code, Section 1348, makes it a crime for anyone to carry out a
scheme to defraud in connection with the security of
any publicly traded company. The Government and
the defendant have agreed at all relevant times to
this case, ArthroCare Corporation was an issuer with
a class of securities registered under Section 12 of the
Securities Exchange Act of 1934, i.e. that ArthroCare
was a publicly traded company.
For you to find the defendant guilty of this crime,
you must be convinced that the Government has proved
each of the following beyond a reasonable doubt:
First:

That the defendant knowingly devised,
or intended to devise, any scheme to
defraud, that is to deceive investors
about ArthroCare Corporation’s financial condition;

Second: That the scheme to defraud employed
false material representations;
Third:

That the defendant devised, or intended to devise, the scheme to defraud in connection with the security
of a publicly traded company; and

Fourth: That the defendant acted with a specific intent to defraud.

App. 44
A “scheme to defraud” means any plan, pattern, or
course of action intended to deprive another of money
or property, or bring about some financial gain to the
person engaged in the scheme.
A “specific intent to defraud” means a conscious,
knowing intent to deceive or cheat someone.
A representation is “false” if it is known to be untrue or is made with reckless indifference as to its
truth or falsity. Reckless indifference means the omission or misrepresentation was so obvious that the defendant must have been aware of it. A representation
would also be “false” if it constitutes a half truth, or
effectively omits or conceals a material fact, provided
it is made with the intent to defraud.
A representation is “material” if it has a natural
tendency to influence, or is capable of influencing,
the decision of the person or entity to which it is addressed.
It is not necessary that the Government prove
all of the details alleged in the Superseding Indictment concerning the precise nature and purpose of the
scheme. What must be proved beyond a reasonable
doubt is that the defendant knowingly devised or intended to devise a scheme to defraud by means of false
or fraudulent pretenses, representations, or promises
that was substantially the same as the one alleged in
the Superseding Indictment.

App. 45
The alleged scheme need not actually succeed in
defrauding anyone.
*

*

*

